Audit of USAID/Peru’s P.L. 480 Title II Program Results



              Audit Report No. 1-527-00-002-P
                       May 5, 2000




                Regional Inspector General
                      San Salvador
                  U.S. A GENCY FOR
                  INTERNATIONAL
                   DEVELOPMENT

                  RIG/San Salvador


                  May 5, 2000


                  MEMORANDUM

                  FOR:               USAID/ Peru Director, Thomas L. Geiger

                  FROM:              Acting RIG/A/San Salvador, Steven H. Bernstein

                  SUBJECT:           Audit of USAID/Peru’s P.L. 480 Title II Program Results
                                     (Report No. 1-527-00-002-P)

                   This memorandum is our report on the subject audit. In finalizing the
                   report, we considered your comments on the draft report. Your comments
                   on the draft report are included in Appendix II.

                   This report contains six recommendations for your action. Based on the
                   information provided by the Mission, management decisions have been
                   reached on these recommendations. A determination of final action for
                   these recommendations will be made by the Office of Management
                   Planning and Innovation (M/MPI/MIC) when planned corrective actions are
                   completed.

                   I appreciate the cooperation and courtesy extended to my staff during the
                   audit.



     Background   Half of Peru’s 25 million people live in poverty and 15 percent live in
                  extreme poverty. In this country of the size of Alaska, USAID/Peru has
                  focused its approximate $50 million P.L. 480 Title II food program in the
                  rural highland and jungle areas where the levels of extreme poverty are the
                  highest. In fiscal year 1999, the USAID/Peru Title II food program
                  distributed, through four non-profit cooperating sponsors, $10 million of
                  food commodities to 6,226 communities over the entire range of the country.


Page 1 of 13                                                    Audit Report No. 1-527-00-002-P
                       In addition, the Title II program monetized another $37 million in food
                       commodities, whose proceeds funded a wide range of programs including
                       nutrition, primary child health care, soil conservation, irrigation, and
                       microcredit.

                       In March 1999, USAID/Peru submitted its annual Results Review and
                       Resources Request (R4). Given the size of the Mission’s Title II program
                       and consistent with prior years’ practice, the Mission included in the R4 an
                       annex that provided a narrative description highlighting program
                       accomplishments and strategic directions as well as a matrix of 15 Title II
                       performance indicators and results for fiscal year 1998. The results for these
                       performance indicators were drawn from the annual results reports from five
                       cooperating sponsors, i.e., Adventist Development and Relief Agency
                       (ADRA); CARE; Caritas; Proyectos en Informatica, Salud, Medicina, y
                       Agricultura (PRISMA); and TechnoServe.



     Audit Objective   As part of its fiscal year 2000 audit plan, the Office of the Regional Inspector
                       General/San Salvador performed an audit to answer the following audit
                       objective:

                              Are P.L. 480 Title II programs in Peru achieving their
                              planned objectives?

                       Appendix I describes the audit's scope and methodology.



     Audit Findings    Are P.L. 480 Title II programs in Peru achieving their planned
                       objectives?

                       We are unable to express an opinion whether Title II programs in Peru were
                       achieving their planned objectives due to problems we found with the
                       accuracy of results data for the performance indicators tested. In all, the
                       Mission’s R4 Title II annex included 15 performance indicators which
                       encompassed 65 distinct data results from the five cooperating sponsors. In
                       collaboration with the Mission’s Title II staff, we decided to focus our
                       testing on four performance indicators that encompassed 15 distinct data
                       results. However, source documentation showed that 9 of these 15 reported
                       results were inaccurate. In addition, the Mission has not generally assessed
                       data sources and methodologies of their Title II performance indicators.
                       Consequently, we could not with confidence assert whether the Mission has
                       been achieving its planned objectives based on reported results in its annual
                       R4.



Page 2 of 13                                                        Audit Report No. 1-527-00-002-P
               Reported Results Were Inaccurate

               Federal laws and regulations require federal agencies to develop and
               implement internal management control systems that: (1) compare actual
               program results against those anticipated; (2) provide for complete, reliable,
               and consistent information, and (3) ensure that performance information is
               clearly documented and that the documentation is readily available for
               examination.

               Specifically, in regard to accuracy, for the purposes of this audit we
               employed two thresholds. First, for transcription error, we used an accuracy
               threshold of 2 percent for the comparison of source documentation to the
               reported result. Second, for computational error, we employed an accuracy
               threshold of 5 percent for computations of results. Using these thresholds, 9
               of the 15 reported results were inaccurate. These inaccurate results were
               due, in part, to a lack of clear Mission procedures. A description of these
               cases is as follows.
               One performance indicator was children graduating from feeding programs
               with distinct data results from three cooperating sponsors. One of these
               reported results was inaccurate.

               §   The 1998 reported result from Caritas was 33,228 children which was
                   based on 72,486 children enrolled multiplied by a graduation rate of
                   45.84%. However, both figures were inaccurate. Caritas determined
                   that, due to the carry-over of some records from the previous year, the
                   number of enrolled children should have been 70,335—a small error.
                   However, the graduation rate was based on data from only 4 out of 33
                   dioceses due to the lack of available validated local data. The basis of
                   the original computation of 45.84% was lost due to records being
                   overwritten in the computer. Nevertheless, when additional data from
                   two more dioceses was added to the updated data from the other four
                   dioceses, the graduation rate changed to 41.45%. Caritas had no
                   analytical basis for using data from four or six dioceses to represent the
                   entire program.

               One performance indicator was hectares incorporated under improved
               production technologies with distinct data results from five cooperating
               sponsors. Three of these reported results were inaccurate.

               §   The 1998 reported result from CARE was 2,628 hectares. However,
                   supporting documentation at CARE showed that 2,528 hectares were
                   incorporated improved production technologies. The difference of 100
                   hectares was a transcription error of 4 percent.

               §   The 1998 reported result from Caritas was 234 hectares. However,
                   supporting documentation at Caritas showed that 40 hectares were


Page 3 of 13                                               Audit Report No. 1-527-00-002-P
                   incorporated improved production technologies. The difference of 194
                   hectares was an error of 83 percent.

               §   The 1998 reported result from PRISMA was 2,304 hectares. However,
                   the PRISMA annual results report showed that the Title II result was
                   1,089 hectares, whereas the 2,304 hectares represented the total program
                   funded by additional sources. The fact that 1,089 hectares was the
                   appropriate figure to cite is further confirmed by the fact that the fiscal
                   year 1998 target of 765 hectares was based on only the Title II
                   component and the reported result for the prior fiscal year (1997) was
                   also limited to the Title II component. The difference of 1,215 hectares
                   was an error of 53 percent.

               One performance indicator was value of microcredit loan portfolio with
               distinct data results from four cooperating sponsors. Three of these reported
               results were inaccurate.

               §   The 1998 reported result from ADRA was $420,000. However,
                   supporting documentation at ADRA showed that $85,788 was the actual
                   value of the microcredit loan portfolio. ADRA had calculated the result
                   using loans disbursed during the fiscal year without taking account
                   repayments. In addition, it had included loans from a non-Title II
                   program. This performance indicator is explicitly defined as the value of
                   outstanding loans. The difference between the reported result and the
                   documented result of $334,212 was an error of 80 percent.

               §   The 1998 reported result from PRISMA was $1,224,439, which
                   comprised the bulk (59 percent) of the total reported result for this
                   performance indicator. However, the PRISMA annual results report
                   showed that the Title II result was $819,119, whereas the $1,224,439
                   represented the total program funded by additional sources. The fact that
                   $819,119 was the appropriate figure to cite is further confirmed by the
                   fact that the fiscal year 1998 target of $764,248 was based on only the
                   Title II component and the reported result for the prior fiscal year 1997
                   was also limited to the Title II component. The difference of $405,320
                   was an error of 33 percent.

               §   The 1998 reported result from TechnoServe was $40,773. However,
                   TechnoServe had calculated the result based on the amount of funds
                   transferred to three TechnoServe-affiliated associations for the purpose
                   of microcredit loans. This performance indicator is explicitly defined as
                   the value of outstanding loans. Furthermore, even the amount of funds
                   transferred—which TechnoServe used as the documented basis for the
                   result—was $68,305, a difference of $27,532 or 68 percent.




Page 4 of 13                                                Audit Report No. 1-527-00-002-P
               One performance indicator was delinquency rates with distinct data results
               from three cooperating sponsors. Two of these reported results were
               inaccurate and a third was not applicable.

               §   The 1998 reported result from ADRA was 4.0 percent. However, the
                   reported result was derived from an urban microcredit loan program not
                   funded by Title II and also based on a preliminary estimate that later
                   changed. The actual result is unknown.

               §   The 1998 reported result from PRISMA was 18.5 percent. However, the
                   PRISMA annual results report showed that the Title II result was 1.9
                   percent, whereas 18.5 percent represented the total program funded by
                   additional sources. The fact that 1.9 percent was the appropriate figure
                   to cite is further confirmed by the fact that the fiscal year 1998 target of
                   5.0 percent was based on only the Title II component and the reported
                   result for the prior fiscal year 1997 was also limited to the Title II
                   component. The difference of 16.6 percent was an error of 90 percent.

               §   The 1998 reported result from CARE was 0.0 percent compared with a
                   fiscal year 1998 target of 2.0 percent.           However, supporting
                   documentation at CARE showed that the cooperating sponsor had not
                   disbursed any loans until August 1998. Consequently, none of the
                   microcredit loan recipients were required to make any loan payments by
                   the end of the fiscal year—September 30th . Therefore, the reported result
                   of 0.0 percent was misleading because it was not applicable.

               The inaccuracy of the reported results was due, in part, to a lack of clear
               procedures and methodology to assess the quality of data sources.
               Supporting documentation at the Mission for all the 15 indicators was
               limited to the annual results report from each of the five cooperating
               sponsors which provided figures in performance tables. However, the
               Mission’s Title II coordinators were not familiar with the calculation
               methodologies employed by the cooperating sponsors. Additionally, the
               Mission’s Title II management and staff have not generally assessed data
               sources and methodologies. This later aspect is discussed in the following
               section.

               The USAID Center for Development Information and Evaluation (CDIE)
               issued TIPS Number 12 (“Guidelines for Indicator and Data Quality”) in
               1998. It notes that sound decisions by USAID management require accurate,
               current, and reliable information. However, without reliable performance
               data, decisionmakers have little assurance whether an operating unit
               exceeded or fell short in achieving its program objectives and related targets.
               In our opinion, the problems cited in this report with the accuracy of
               performance indicators and results reporting impair USAID/Peru’s and
               USAID management’s ability to (1) measure progress in achieving program


Page 5 of 13                                                Audit Report No. 1-527-00-002-P
               objectives and (2) use performance information in budget allocation
               decisions.

               In regard to ensuring that Title II performance data in its R4 are supported,
               accurate, and complete, the Mission should review, for the R4 prepared in
               2001, all Title II indicator results for support, accuracy, and completeness
               prior to issuance.

                      Recommendation No. 1: We recommend that USAID/Peru ensure
                      that the Title II performance results in its R4 prepared in 2001 are
                      supported, accurate, and complete.

               USAID guidance for the last two fiscal years’ R4s encouraged Missions to
               make use of comments for various reasons including significant data
               limitations and their implications for measuring performance results against
               anticipated performance targets. However, the Mission did not reveal data
               quality limitations in its R4 for Title II performance indicators.

               For the performance indicator, children graduating from feeding programs,
               the 1998 reported result from PRISMA was 152,436 children, which
               comprised the bulk (72 percent) of the total reported result for this
               performance indicator. However, due to the lack of validated local data that
               is available by the time that the R4 is prepared, PRISMA used an alternative
               complicated formula for estimating the number of children graduating. The
               calculation used as a starting point the programmed number of metric tons of
               food to be distributed during the fiscal year. (This figure came from a July
               1997 document, before the start of fiscal year 1998.) This was converted to
               rations per month or families served by dividing total metric tons of food
               successively by ration size and then again by the 12 months in a year. Given
               the rations per month which was assumed to be families served, PRISMA
               used three more conversion factors (percentage of families actually
               attending, percentage graduation rate, and number of children enrolled per
               family) to derive consecutively total number of families attending in one
               year, total number of children enrolled, and finally total number of children
               graduating. PRISMA officials noted that all three conversion factors are
               based on data from the fiscal year which is available for verification.
               However, aside from its complexity, neither the Mission nor PRISMA has
               employed studies to determine if the calculation methodology is accurate.
               PRISMA officials believe that the estimated result is within 5 percent of
               actual results, but no studies are available to document this assertion. It may
               well be that this estimating methodology is the best and most reasonable
               source for computing the result. Nevertheless, the Mission should assess the
               data’s sources and methodology as explained later. In addition, given the
               inherent limitations in the quality of data, the Mission should reveal this
               aspect within the R4.



Page 6 of 13                                                Audit Report No. 1-527-00-002-P
                      Recommendation No. 2: We recommend that USAID/Peru fully
                      disclose in its R4 prepared in 2001 data limitations and the
                      resulting implications for assessing the measurement and
                      achievement of performance targets for each Title II performance
                      indicator.

               USAID’s Automated Directive System (ADS) E203.5.5 states that “The
               Agency and its operating units shall define performance indicators for which
               quality data are available” and also “If data for a performance indicator
               prove to be unavailable or too costly to collect, the indicator may need to be
               changed.” With regard to the performance indicator, children graduating
               from feeding programs, two of the three cooperating sponsors providing data
               did not have available data to report actual results. In one case (Caritas), the
               reported result was inaccurate and in the other case (PRISMA), the
               cooperating sponsor employed an estimating methodology to calculate a
               result.

                      Recommendation No. 3: We recommend that USAID/Peru ensure
                      that quality data is available for its Title II performance indicators
                      at the time the R4 is prepared and consider dropping indicators
                      from its R4 for which such data is not available.

               Performance Indicators’ Data Were Not Assessed

               ADS E203.5.5e states that “Data quality will be assessed as part of the
               process of establishing performance indicators and choosing data collection
               sources and methods. Data quality will be reassessed as is necessary, but at
               intervals of no greater than three years.” The USAID TIPS Number 12
               provides further guidelines for assessing or reassessing data quality
               associated with performance indicators. It states that it is important to take a
               critical look at performance measurement systems and data sources from
               time to time to make sure that indicators are still measuring what we think
               they are measuring and that data are being collected in the way that we
               intend. Reassessments should be systematic, documented, and cover all
               performance indicators.

               Due to the staff not being familiar with the ADS requirements, the Mission’s
               Title II office has not systematically assessed data quality associated with its
               performance indicators. It did contract for an independent evaluation
               conducted in 1998 that, in essence, served as an assessment of the
               performance indicators for micro credit programs for two cooperating
               sponsors. Otherwise, the Mission had not assessed its Title II performance
               indicators. Additionally, USAID/Peru has to be concerned with consistency
               of data collection methodologies. The Title II performance indicators gather
               data from up to five cooperating sponsors against the same performance
               indicator definition. Consequently, consistency of methodology is not only


Page 7 of 13                                                Audit Report No. 1-527-00-002-P
               an issue from year to year but also from different data sources within the
               same reporting period. For example, for the performance indicator, value of
               microcredit loan portfolio, ADRA and TechnoServe used incorrect and
               different methodologies from CARE.

                       Recommendation No. 4: We recommend that USAID/Peru ensure
                       that all Title II performance indicators in its R4 prepared in 2001
                       are assessed (including consistency of methodologies across
                       cooperating sponsors) and at regular intervals thereafter (but no
                       less than every 3 years); or fully disclose in the R4: (1) why
                       indicators were not assessed, (2) the resulting limitations in the
                       confidence in data quality and the implications for assessing the
                       measurement and achievement of performance targets, and (3) a
                       time frame for assessing the performance indicator.

               R4 Title II Annex Did Not Show Targets

               ADS 203.4 defines a performance target as the specific and intended result to
               be achieved within an explicit timeframe and against which actual results are
               compared and assessed. However, the fiscal year 1998 (and fiscal year 1997
               as well) R4 Title II annex did not have a column showing targets with which
               to directly compare actual results. The narrative portion of the annex
               discusses results versus targets in spite of the fact that the targets can only be
               seen by referring to the previous year’s R4 document.

                       Recommendation No. 5: We recommend that USAID/Peru include in
                       its Title II annex a targets column in its R4 prepared in 2001 to allow
                       the direct comparison of results with targets.

               Other Issues

               The Mission's status reports of losses and claims for the four cooperating
               sponsors are well organized, with breakouts by cooperating sponsor, fiscal
               year quarter, claim number, commodity, weight, value in dollars, type of
               loss, status, and amount recovered. Underlying supporting files are also
               well organized. As required, claims recovery process is working including
               repayments of dollar checks submitted to the U.S. Treasury. The status
               reports and follow-up process meet the requirements of Regulation 11 and
               BHR cable guidance. Nevertheless, the Mission has a large four-year
               backlog in adjudicating claims/losses. The Mission has identified that the
               value of pending claims for all four cooperating sponsors for the four
               fiscal years (1996 to 1999) is $412,581 for 239 individual claims.

                       Recommendation No. 6: We recommend that USAID/Peru ensure
                       that four-year backlog of pending claims needing resolution is
                       completed and made current.


Page 8 of 13                                                 Audit Report No. 1-527-00-002-P
                    In addition to the above issues, we identified other findings which were not
                    significant to the audit objective and, thus, are not included in this audit
                    report. These findings were communicated to USAID/Peru by a separate
                    memorandum dated May 5, 2000.




   Management       USAID/Peru agreed with the report and is planning to implement each of the
   Comments and     six report recommendations. Based on the information provided by the
                    Mission, management decisions have been reached on Recommendation
   Our Evaluation
                    Nos. 1, 2, 3, 4, 5, and 6.




Page 9 of 13                                                   Audit Report No. 1-527-00-002-P
                                                                                  Appendix I
                                                                                  Page 1 of 2

   Scope and     Scope
   Methodology   The Office of the Regional Inspector General/San Salvador conducted an
                 audit, in accordance with generally accepted government auditing standards,
                 to determine if the P.L. 480 Title II programs in Peru are achieving their
                 planned objectives. The audit was conducted at USAID/Peru and five
                 cooperating sponsors (Adventist Development and Relief Agency, CARE,
                 Caritas, PRISMA, and TechnoServe) from October 28, 1999 through
                 February 10, 2000.

                 In addition to the Mission and the five cooperating sponsor headquarters in
                 Lima, we also visited cooperating sponsor regional or subrecipient offices
                 (and four food warehouses) in Ayacucho, Cuzco, and Juliaca for ADRA;
                 Piura and Cuzco for CARE; Iquitos, Piura, and Tarapoto for Caritas; and
                 Puno for TechnoServe. We also visited 37 project sites (fish pond farm,
                 irrigation channels, children and pregnant mothers nutrition and feeding
                 programs, road building, guinea pig farm, coffee plant nursery, potable water
                 construction, health post construction, chicken farm, endangered tree
                 management, water reservoir rehabilitation, greenhouses, goat farm, and
                 community food warehouses) in 18 communities. Due to both security and
                 logistical restrictions, we could not visit regional offices and community
                 projects according to a random sampling. Nevertheless, our site visits were
                 designed to provide coverage according to several variables including the
                 northern and southern sections of the country, the rural highlands and the
                 jungle (the two principal areas of Title II programs due to the extreme
                 poverty), and different cooperating sponsors—especially ADRA and Caritas
                 who will continue a high level of direct food distribution.

                 Methodology

                 In answering the audit objective, we interviewed officials as well as reviewed
                 and tested documentation at USAID/Peru and the five cooperating sponsors.
                 Such documentation included Mission staffing and organization; maps;
                 annual Mission R4 reports; Mission internal control assessments; USAID
                 Regulation 11; USAID, Bureau, and Mission R4 guidance including USAID
                 Center for Development Information and Evaluation (CDIE) Tip Series
                 Numbers 6, 7, 8, and 12; Bureau guidance for cooperating sponsor annual
                 results reports, historical funding and food distribution data, Mission ledger
                 for tracking food losses and claims; independent evaluations during 1998 and
                 1999; annual cooperating sponsor results reports; annual cooperating sponsor
                 monitoring and evaluation plans; quarterly reports (including losses) provided
                 by four non-governmental organizations for fiscal year 1999, the most recent
                 complete fiscal year; and numerous other internal control documents used by
                 the cooperating sponsors to track the warehousing and distribution of



Page 10 of 13                                                Audit Report No. 1-527-00-002-P
                                                                                Appendix I
                                                                                Page 2 of 2
                commodities. We also reviewed applicable prior Office of Inspector General
                audit reports and summaries and audit reports of cooperating sponsors.

                The Mission’s R4 Title II annex included 15 performance indicators which
                encompassed 65 distinct data results from the five cooperating sponsors. At
                the beginning of the audit fieldwork, we devised a methodology, in
                collaboration with the Mission’s Title II staff, to focus our testing on four
                performance indicators that encompassed 15 distinct data results. Seven
                criteria were used to determine which performance indicators were reviewed.

                §   First, does the performance indicator relate to malnutrition or
                    household revenues which, according to the R4 prepared in 1999, will
                    be the future common impact indicators in selected communities for
                    each of the cooperating sponsors?
                §   Second, is the performance indicator reported by most of the
                    cooperating sponsors (three or more) and is the performance indicator
                    reported by more cooperating sponsors providing a greater cross-
                    section of reporting?
                §   Third, is the performance indicator unidimensional, measuring just one
                    data element?
                §   Fourth, does the indicator measure program results as opposed to
                    participation or outputs?
                §   Fifth, does the performance indicator measure activities which currently
                    represent the principal components of the Title II program?
                §   Sixth, does the performance indicator measure activities which may
                    continue to be the principal components of the Title II program?
                §   Seventh, does the performance indicator measure the sustainability of
                    the program?

                In assessing accuracy, we employed two materiality thresholds. First, for
                transcription error, we used an accuracy threshold of 2 percent for the
                comparison of source documentation to the reported result. Second, for
                computational error, we employed an accuracy threshold of 5 percent for
                computations of results. Our review did not assess several aspects of the
                Mission’s Title II performance indicators including: (1) the development or
                supporting documentation of targets, (2) the accuracy of baseline data, (3) the
                consistency of reported results methodologies across different fiscal years,
                and (4) results reported in the narrative portion of the R4.

                We also reviewed applicable internal controls to obtain a sufficient
                understanding of the design of relevant internal control policies and
                procedures. The relevant internal controls were limited to the Mission’s and
                cooperating sponsors’ systems for Title II food distribution and the Mission’s
                Title II R4 results reporting.



Page 11 of 13                                               Audit Report No. 1-527-00-002-P
                                     Appendix II
                                     Page 1 of 2




Page 12 of 13   Audit Report No. 1-527-00-002-P
                                     Appendix II
                                     Page 2 of 2




Page 13 of 13   Audit Report No. 1-527-00-002-P
